         Office of Inspector General




January 26, 2007

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – Automated Package Processing System Status and
              Administration (Report Number DA-AR-07-001)

This report presents the results of our audit of the Automated Package Processing
Systems (APPS) (Project Number 05XG019DA000). The audit was self-initiated as part
of our continuing review of the APPS program.

At the start of our audit, APPS machines, conditionally accepted by the U.S. Postal
Service, did not fully meet program objectives due to performance challenges.
However, recent Postal Service test results indicate that a retrofit improved system
performance. In addition, the Postal Service established payment withholds for
technical performance shortfalls, sought appropriate recoveries for contractor schedule
slippages, and specified conditions for full acceptance. However, Postal Service
officials could improve certain contracting activities to better support program
requirements according to Postal Service policies and procedures. These issues
resulted in non-monetary benefits of $12 million for assets at risk and monetary benefits
of $1,980,150 for unrecoverable questioned costs. These amounts will be reported in
our Semiannual Report to Congress.

We recommended that management encourage the removal of targeted operations as
performance warrants, reassess the investment impact of unanticipated costs, and
ensure that future major equipment contracts adequately detail maintenance
specifications. In addition, we made four more recommendations to improve contracting
activities. Management generally agreed with our recommendations. However,
management disagreed with our categorization of a separate $12 million contract and
payment as an advance payment. They also disagreed with the categorization of
$1.98 million in unrecoverable questioned costs stemming from interest lost on the
advance payment. Management’s comments and our evaluation of those comments
are included in the report.
Actions taken relating to recommendations 1, 3, 5, 6, and 7 were sufficient to close
them. However, the U.S. Postal Service Office of Inspector General (OIG) considers
recommendation 2 significant and remains open. Therefore, recommendation 2
requires OIG concurrence before closure and we request written confirmation when the
planned corrective action is completed. This recommendation should not be closed in
the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed. In addition, management agreed to recommendation
4, but their comments were not responsive to the issues identified in the finding. We do
not plan to pursue recommendation 4 through the formal audit resolution process.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Miguel Castillo,
Director, Engineering; Judy Leonhardt, Director, Supply Management and Facilities; or
me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Aron M. Sanchez
    Mark A. Guifoil
    Marie K. Martinez
    Steven R. Phelps
Automated Package Processing System                                     DA-AR-07-001
 Status and Administration


                                TABLE OF CONTENTS

 Executive Summary                                                          i

 Part I

 Introduction                                                               1

    Background                                                              1
    Objectives, Scope, and Methodology                                      2
    Prior Audit Coverage                                                    3

 Part II

 Audit Results                                                              5

    Automated Package Processing System Program Objectives                  5
        Replacing Small Parcel and Bundle Sorter                            5
        Minimizing Maintenance Costs                                        7
        Recent Developments                                                 8
        Recoveries for Nonperformance                                       8
        Recommendations                                                     9
        Management’s Comments                                               9
        Evaluation of Management’s Comments                                 9

     Automated Package Processing System Contracting Activities            10
         Advance Payment to the Contractor                                 10
         Recommendation                                                    12
         Management’s Comments                                             12
         Evaluation of Management’s Comments                               12

           Documenting Decisions and Agreements                            12
           Recommendations                                                 13
           Management’s Comments                                           14
           Evaluation of Management’s Comments                             14

           Controls Over Automated Package Processing System Contract
           Payments                                                        14
           Recommendation                                                  15
           Management’s Comments                                           15
           Evaluation of Management’s Comments                             15

 Appendix A. Assets at Risk and Unrecoverable Questioned Costs             16
Automated Package Processing System                                   DA-AR-07-001
 Status and Administration


 Appendix B. Management’s Comments                                       18

 Table and Illustrations

    Table 1. SPBS Operational, Retrofit, and APPS Maintenance Costs       5

    Illustration 1. APPS Waterfall                                        6
    Illustration 2. APPS Maintenance Workhours                            7
Automated Package Processing System                                               DA-AR-07-001
 Status and Administration


                               EXECUTIVE SUMMARY
 Introduction                The U.S. Postal Service Office of Inspector General
                             assessed whether the Automated Package Processing
                             System (APPS) met program objectives for replacing Small
                             Parcel and Bundle Sorter (SPBS) machines and statement
                             of work objectives for minimizing maintenance
                             requirements. In addition, we determined whether the
                             Postal Service sought appropriate recoveries for contractor
                             nonperformance. Finally, we determined whether contract
                             activities supported program requirements and whether they
                             were performed according to Postal Service policies and
                             procedures.

 Results in Brief            At the start of our audit, APPS machines that were
                             conditionally accepted by the Postal Service were breaking
                             mail bundles and incurring excessive maintenance. Hence,
                             management retained SPBS machines they had planned to
                             replace to process mail that did not sort on APPS machines.
                             We estimate the Postal Service incurred over $30 million in
                             unexpected costs for SPBS operations and excessive
                             maintenance on these conditionally accepted APPS
                             machines.

                             Recently, the Postal Service reported that field tests for fully
                             accepted APPS machines indicate that a retrofit improved
                             the sustained performance and availability, providing a
                             reliable platform on which to process mail. However, our
                             analysis indicated that excessive maintenance workhours
                             remained a concern.

                             The Postal Service established payment withholds for
                             technical performance shortfalls, sought appropriate
                             recoveries for contractor schedule slippages, and specified
                             the conditions for full acceptance. Also, APPS program
                             managers properly paid contractor invoices and properly
                             reduced invoices to liquidate contractor progress payments
                             and to withhold amounts for contractor nonperformance.
                             However, Postal Service officials could improve certain
                             contracting activities to better support program requirements
                             according to Postal Service policies and procedures.
                             Specifically, the Postal Service awarded two contracts to the
                             APPS supplier, resulting in an apparent unapproved
                             $12 million advance payment and a loss to the Postal
                             Service of approximately $2 million in interest on advanced



                                               i
Automated Package Processing System                                                                       DA-AR-07-001
 Status and Administration


                                      monies. These issues resulted in non-monetary benefits of
                                      $12 million for assets at risk and monetary benefits of
                                      $1,980,150 for unrecoverable questioned costs. These
                                      amounts will be reported in our Semiannual Report to
                                      Congress.

                                      Additionally, the contracting officer did not formally notify the
                                      contractor of the conditional acceptance following first article
                                      test or timely modify the contract to reflect subsequent
                                      agreements to revised testing and acceptance procedures.
                                      Finally, the contracting officer’s representative did not
                                      review and maintain receiving reports or other supporting
                                      documentation for nine of 39 contractor invoices1 before
                                      certifying them for payment.

    Summary of                        We recommended the Vice President, Engineering, in
    Recommendations                   coordination with the Vice President, Supply Management,
                                      encourage the removal of SPBS operations as planned,
                                      reassess the investment impact of unanticipated costs, and
                                      ensure that future major equipment contracts adequately
                                      detail maintenance specifications. In addition, we made
                                      four more recommendations to improve contracting
                                      activities.

    Summary of                        Management agreed with our recommendations to remove
    Management’s                      the remaining SPBS as APPS performance warrants and to
    Comments                          ensure future U.S. Postal Service major equipment
                                      contracts adequately detail maintenance specifications prior
                                      to contract award. Management partially agreed with our
                                      recommendation to reassess the investment impact of
                                      operating APPS with unanticipated additional SPBS and
                                      maintenance hours, stating such an assessment would be
                                      part of an After Cost Study undertaken by Headquarters
                                      Finance.

                                      Management also agreed with our recommendations to
                                      document the APPS contract file to explain how the
                                      contracting officer communicated conditional acceptance to
                                      the contractor and to timely modify the contract to
                                      incorporate any future revisions to testing and acceptance.
                                      Additionally, management agreed to our recommendation to
                                      review and maintain copies of invoice supporting
                                      documentation as evidence that contractors actually

1
    The nine invoices totaled approximately $59.7 million, while the 39 invoices totaled approximately $228 million.



                                                             ii
Automated Package Processing System                                              DA-AR-07-001
 Status and Administration


                             incurred costs claimed for progress payments and provided
                             supplies and services before certifying invoices for
                             payments.

                             Finally, management agreed with our recommendation to
                             obtain appropriate approvals prior to executing contracts
                             resulting in alternative payment agreements or advance
                             payment and require contractors to pay interest, as
                             appropriate. However, management disagreed with our
                             categorization of the separate $12 million contract and
                             payment as an advance payment, stating the contract was
                             part of the negotiations and resulted in a price reduction that
                             was in the Postal Service’s best interest. They also
                             disagreed with the categorization of $1.98 million in
                             unrecoverable questioned costs stemming from interest lost
                             on the advance payment. Management’s comments, in
                             their entirety, are included in Appendix B of this report.

 Overall Evaluation of       Management’s actions taken or planned are responsive to
 Management’s                recommendations 1, 3, 5, 6, and 7 and should correct the
 Comments                    issues identified in the findings. Although management
                             agreed to recommendation 2 and their planned action is
                             responsive, no timeframes were specified for completion.
                             Thus, we continue to consider the recommendation open
                             and significant. In addition, management agreed to
                             recommendation 4, however, their comments were not
                             responsive to the issues identified in the finding. Although
                             we agree the separate contract was part of the negotiations
                             and resulted in an overall reduced price, we believe the
                             Postal Service’s agreement is most analogous to an
                             advance payment since the arrangement allowed the
                             contractor to receive monies before delivering any supplies.
                             Consequently, we continue to believe our recommendation
                             and claimed benefits are appropriate. However, we do not
                             plan to pursue recommendation 4 through the formal audit
                             resolution process.




                                              iii
Automated Package Processing System                                             DA-AR-07-001
 Status and Administration



                                      INTRODUCTION
 Background                  The U.S. Postal Service is deploying Automated Package
                             Processing Systems (APPS) to replace the Small Parcel
                             and Bundle Sorters (SPBS). APPS machines are expected
                             to improve processing efficiency and increase the capacity
                             of bundle and parcel sorting through automation, thus
                             reducing costs. The Postal Service currently uses SPBS to
                             process bundles of flats or letters, parcel-sized Priority
                             Mail®, and Parcel Post®. The Postal Service’s plan is to
                             replace one or two SPBS for every APPS machine installed
                             at selected plants.

                             The APPS contract requires the contractor to deliver APPS
                             machines that meet statement of work (SOW) requirements
                             according to a deployment schedule. The APPS program
                             received first article test (FAT) conditional acceptance in
                             May 2004. In July 2004, the Postal Service began
                             deploying and conditionally accepting APPS machines, but
                             had performance and reliability challenges. In May 2006,
                             the Postal Service had conditionally accepted the first 50
                             deployed APPS units with the understanding that the vendor
                             would bring the machines into compliance with the SOW.

                             To address issues with APPS performance and reliability,
                             the vendor has installed a retrofit kit. Fleet Acceptance
                             Testing (FLAT) was designed to ensure the installed retrofit
                             kits corrected previously identified APPS performance
                             shortfalls on the first 50 deployed APPS machines.

                             The contracting officer is responsible for ensuring timely
                             contract performance according to contract specifications
                             and ensuring the supplier is promptly compensated in the
                             proper amount. The contracting officer may appoint, in
                             writing, one or more representatives (COR) to perform any
                             administrative function that does not involve a change in the
                             scope of work, specifications, or cost or duration of contract
                             performance.




                                              1
Automated Package Processing System                                              DA-AR-07-001
 Status and Administration




 Objectives, Scope,          The U.S. Postal Service Office of Inspector General (OIG)
 and Methodology             assessed whether the APPS program met objectives for
                             replacing SPBS machines and SOW objectives for
                             minimizing maintenance requirements. In addition, we
                             determined whether the Postal Service sought appropriate
                             recoveries for contractor nonperformance. Finally, we
                             determined whether contract activities supported program
                             requirements and were performed according to Postal
                             Service policies and procedures.

                             Our review focused primarily on conditionally accepted,
                             non-retrofitted APPS machines. The Postal Service had not
                             deployed retrofitted unconditionally accepted machines at
                             the start of our audit. To assess whether the APPS
                             program met objectives for replacing SPBS machines and
                             achieving system maintenance requirements, we:

                                 •    Determined whether sites with deployed APPS units
                                      replaced SPBS operations as documented in the
                                      SOW and detailed in the Decision Analysis Report
                                      (DAR) field budget and, if not, calculated the
                                      additional SPBS workhours.

                                 •    Measured APPS maintenance hours against SOW
                                      expectations as stated in Section F.

                                 •    Interviewed and obtained site-specific information
                                      from Postal Service program managers and field
                                      officials.

                             We relied on computer-processed data maintained in Postal
                             Service operational systems, including the End of Run
                             Reports, Maintenance Activity Reports, eDeploy, and
                             Management Operating Data System Reports. We
                             conducted a preliminary assessment of data reliability and
                             concluded the data used was sufficiently reliable to answer
                             the audit objectives.

                             We reviewed the contract file (including modifications,
                             correspondence, and negotiation memoranda) to determine
                             whether the Postal Service sought appropriate recoveries
                             for contractor nonperformance and whether contract
                             activities supported program requirements and were
                             performed according to Postal Service policies and


                                               2
Automated Package Processing System                                            DA-AR-07-001
 Status and Administration


                             procedures. Additionally, we reviewed contractor invoices
                             and supporting documentation from the contract award date
                             of September 20, 2002, through April 5, 2006. To perform
                             our analysis, we relied on computer-generated data in the
                             Accounts Payable Accounting and Reporting System
                             (APARS) and the Accounts Payable System. For the period
                             reviewed, we compared invoice numbers, dates, and
                             amounts with payment data in APARS and the Accounts
                             Payable System. We believe the data were sufficiently
                             reliable to form our conclusions and recommendations.

                             We conducted this audit from October 2005 through
                             January 2007 in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as we considered necessary under the
                             circumstances. We discussed our observations and
                             conclusions with management officials and included their
                             comments where appropriate.

 Prior Audit Coverage        The OIG issued a report titled Audit of Firm Fixed Price
                             Proposal Submitted by Lockheed Martin Distribution
                             Technologies, Under Solicitation Number 102590-01-A-
                             0040, Contract Pricing Case Number PC-02-029 (Report
                             Number CA-CAR-02-054, dated September 13, 2002). The
                             report stated the contractor submitted adequate cost or
                             pricing data and prepared the proposal in accordance with
                             applicable provisions of the Postal Service’s Purchasing
                             Manual. The contractor’s proposed price was
                             approximately $357 million. Finally, the report concluded
                             the contractor proposal was acceptable as a basis for
                             negotiation of a fair and reasonable price.

                             Also, the OIG issued a report titled Automated Package
                             Processing System First Article Test (Report Number DA-
                             AR-04-001, dated August 20, 2004). The report identified
                             problems with throughput performance during the testing
                             phase and issues related to facility modification costs.
                             Management agreed with our findings and
                             recommendations to capture all relevant costs and provided
                             detailed specifications to the sites affected.

                             Additionally, the OIG issued a report titled Automated
                             Package Processing System Deployment (Report Number
                             DA-AR-06-004, dated March 21, 2006). The report identified
                             significant performance challenges at APPS deployment
                             sites and retest plans that provided inadequate protection to


                                              3
Automated Package Processing System                                        DA-AR-07-001
 Status and Administration


                             the Postal Service. Management disagreed with our
                             findings, but agreed with the recommendation to test
                             sustained performance in accordance with the SOW before
                             acceptance.




                                            4
Automated Package Processing System                                                              DA-AR-07-001
 Status and Administration


                                          AUDIT RESULTS
    Automated Package            At the start of our audit, conditionally accepted APPS
    Processing System            machines did not fully meet program objectives.
    Program and                  Specifically, management retained SPBS machines they
    Statement of Work            had planned to replace to process mail that did not sort on
    Objectives                   APPS machines. In addition, APPS maintenance
                                 workhours exceeded SOW objectives. As a result, we
                                 estimate the Postal Service has incurred over $30 million in
                                 unexpected costs for SPBS operations and excessive APPS
                                 maintenance on these conditionally accepted machines.
                                 (See Table 1.)

                                  Table 1. SPBS Operations Costs and APPS Maintenance

                                                          Costs                                Amount
                                   Unexpected SPBS Operational Costs                          $27,870,233
                                   (Conditional acceptance through planned
                                   retrofit date)
                                   Excess APPS Maintenance Costs                                 2,397,329
                                   (Installation date to December 31, 2005)
                                   Total Costs                                                $30,267,562


    Replacing Small Parcel       As of December 2005, we determined that 15 of the first 31
    and Bundle Sorter            APPS deployment sites continued to maintain their SPBS
                                 operations.2 We estimated these sites will incur SPBS labor
                                 and maintenance costs of approximately $27.9 million from
                                 conditional acceptance through the retrofit3 date. At the
                                 time of our audit, the 15 sites had already incurred almost
                                 $22 million4 in SPBS labor and maintenance costs. The
                                 Postal Service incurred additional SPBS labor and
                                 maintenance costs up to the retrofit installation date. We
                                 estimate this additional cost at $5.9 million.

                                 According to program objectives stated in the SOW, the
                                 APPS units were supposed to replace the existing SPBS
                                 machines by handling all the packages and bundles
                                 processed on the current SPBS machines. This would
                                 allow the Postal Service to eliminate the corresponding
                                 SPBS labor and maintenance costs. However, Postal
                                 Service field officials stated that mail was diverted to SPBS

2
  We obtained APPS deployment information from eDeploy.
3
  The vendor is installing a retrofit to address the system’s performance and reliability issues.
4
  We calculated SPBS workhour costs by multiplying excess SPBS regular and overtime workhours incurred from the
conditional acceptance date through December 31, 2005, by the Postal Service’s March 2004 published rate for a
Postal Service level 05 (PS-05) mail processing clerk.


                                                       5
Automated Package Processing System                                                        DA-AR-07-001
 Status and Administration


                                    operations because the APPS machines could not always
                                    process it. Specifically, sites that retained SPBS machines
                                    used them to process mail bundles broken apart at the
                                    APPS induction conveyor system waterfall or to process
                                    mail the APPS machines rejected.




                                    Illustration 1. We observed Standard A mail bundles breaking
                                    apart on the APPS induction conveyor system waterfall.

                                    In addition, excessive debris jams and system downtime
                                    furthered the need for sites to maintain SPBS operations.

                                    Replacing SPBS operations with APPS machines was the
                                    basis of the labor savings used to calculate the return on
                                    investment in the DAR.5 However, because of APPS
                                    performance concerns, the Postal Service operated both
                                    APPS and SPBS machines. As a result, the Postal Service
                                    will not fully realize the expected reduction in SPBS
                                    operational costs.




5
    We obtained the APPS replacement plan for SPBS operations from the DAR field budget.


                                                         6
Automated Package Processing System                                                                      DA-AR-07-001
 Status and Administration



 Minimizing                         Maintenance workhours for conditionally accepted APPS
 Maintenance Costs                  machines exceeded SOW objectives. According to
                                    Section F of the SOW, the equipment design minimizes
                                    maintenance costs and personnel requirements and allows
                                    for 12 workhours of daily preventive maintenance.6
                                    Excluding these 12 workhours of daily preventive
                                    maintenance per machine, the Postal Service incurred
                                    59,135 additional maintenance workhours7 at the first 31
                                    deployment sites. These excess maintenance hours
                                    consisted of corrective, operational, and reactive
                                    maintenance8 and cost the Postal Service approximately
                                    $2.4 million.9 While one of the SOW objectives was to
                                    minimize maintenance personnel costs, it did not specify
                                    acceptable levels of corrective, operational, and reactive
                                    maintenance. As a result, the contractor delivered, and the
                                    Postal Service has been accepting, systems with three
                                    times the amount of allowable maintenance.

                                               Illustration 2. APPS Maintenance Workhours
                                               (from installation date through December 31, 2005)



                                      30,000                                       25,445
                                                                                               Total excess
                                      25,000                         21,358                    maintenance
                                                    20,015                                     workhours
                                                                                               were 59,135
                                      20,000

                                                                                                  12,332
                                      15,000


                                      10,000


                                       5,000


                                           0
                                                Preventive       Corrective   Operational    Reactive




6
  Per SOW Section F.9.1, the APPS are allowed a 4-hour window using a maximum of three maintenance personnel
to conduct preventive maintenance.
7
  We collected maintenance workhours from the installation date to December 31, 2005.
8
  Corrective maintenance is repairing or replacing a failed or defective part and returning the equipment to operating
condition. Operational maintenance is generally monitoring equipment performance. Reactive maintenance is
maintenance of equipment when an unforeseen failure occurs.
9
  We calculated APPS maintenance costs by multiplying the excess maintenance hours of 59,135 by the average
salary rate for Postal Service maintenance personnel.


                                                             7
Automated Package Processing System                                                             DA-AR-07-001
 Status and Administration


 Recent Developments             Recent test results from the Postal Service indicate that a
                                 retrofit improved the sustained performance and availability,
                                 providing a reliable platform on which to process mail.
                                 However, a workhour review of the first eight
                                 fully accepted10 machines indicated excessive maintenance
                                 is still a concern. Specifically, on average, corrective,
                                 operational, and reactive maintenance workhours continued
                                 to significantly exceed11 the allowed preventive
                                 maintenance workhours. This could partially be attributed to
                                 the Postal Service’s decision to authorize one operational
                                 maintenance workhour per APPS run-hour per system
                                 primarily for visual checks and observation activities.12

 Recoveries for                  To protect its interests, the Postal Service established
 Nonperformance                  payment withholds for technical performance shortfalls,
                                 sought appropriate recoveries for contractor schedule
                                 slippages, and specified the conditions for full acceptance.

                                 xx xxxxx xxxx, xxx xxxxxx xxxxx xxxxxxxxx xxxxxxxxxxxx x
                                 xx xxxxxxx xxxxxx xx xxx xxxxx xx xxxxxxx xxxxxxxxxx
                                 xxxxxxxx xxxxxx xxxxxx, xx xx x xxxxx xxx xxxlion,13 xxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                 xxxxxxxxxxxx.

                                 In February 2006, the Postal Service negotiated an
                                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                 primarily in the form of Postal Service use of enhanced
                                 recognition software. Additionally, the Postal Service and
                                 contractor agreed to a mutual release of claims arising from
                                 the facts or circumstances up to the date of the execution of
                                 the contract modification. However, the Postal Service did
                                 not release the supplier from performance requirements for
                                 deployed and conditionally accepted equipment. The Postal
                                 Service’s rationale for this consideration appeared
                                 reasonable in light of actual damages suffered and its goal
                                 of not jeopardizing future contract performance.

                                 In July 2006, management specified the conditions for full
                                 acceptance of machines through a contract modification
10
   The Field Acceptance Test Plan criteria were used to accept Postal Service fielded systems.
11
   Combined corrective, operational, and reactive maintenance accounted for approximately 84 percent of total
maintenance at these sites.
12
   Per Maintenance Bulletin Maintenance Management Order (MMO) -115-05, a run-hour is defined as the number of
hours the APPS is processing mail. Visual checks and observation activities are described in MMO-073-04, dated
October 8, 2004.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.


                                                      8
Automated Package Processing System                                            DA-AR-07-001
 Status and Administration


                             (modification 18) to include the replacement of certain
                             problematic equipment parts contributing to excessive
                             maintenance. While the modification detailed retrofit fixes,
                             reinspection, and release of previously withheld payments, it
                             did not limit Postal Service remedies under the existing
                             warranty provision.

 Recommendations             We recommend the Vice President, Engineering:

                             1. Remove the remaining Small Parcel and Bundle Sorters
                                as Automated Package Processing Systems
                                performance warrants.

                             2. Reassess the investment impact of operating Automated
                                Package Processing Systems with unanticipated
                                additional Small Parcel and Bundle Sorter and
                                maintenance hours.

                             We recommend the Vice President, Engineering, in
                             coordination with the Vice President, Supply Management:

                             3. Ensure future U.S. Postal Service major equipment
                                contracts adequately detail maintenance specifications
                                prior to contract award.

 Management’s                Management agreed with recommendation 1 and indicated
 Comments                    they would remove all remaining SPBS machines by March
                             2007. Management partially agreed with recommendation
                             2. They indicated that the actual impacts from the APPS
                             Phase 1 Program would be part of the After Cost Study
                             undertaken by Headquarters Finance. They also indicated
                             that any savings produced from relocated SPBS machines
                             would offset any additional SPBS maintenance hours
                             incurred. Management agreed with recommendation 3 and
                             stated they will include performance-based requirements
                             concerning machine availability and maintenance metrics
                             within the Statement of Work for mail processing platforms.

 Evaluation of               Management’s comments are responsive to
 Management’s                recommendations 1 and 3. Actions taken should correct the
 Comments                    findings identified in the report. Although management
                             agreed to recommendation 2 and their planned action is
                             responsive, no timeframes were specified for completion.
                             Thus, we continue to consider the recommendation open
                             and significant.


                                              9
Automated Package Processing System                                                                       DA-AR-07-001
 Status and Administration




 Automated Package                    APPS program managers properly paid contractor invoices
 Processing System                    and properly reduced invoices to liquidate contractor
 Contracting Activities               progress payments and to withhold amounts for contractor
                                      nonperformance. However, Postal Service officials could
                                      improve certain contracting activities to better support
                                      program requirements according to Postal Service policies
                                      and procedures. Specifically, the Postal Service awarded
                                      two contracts to the APPS supplier, resulting in an apparent
                                      unapproved advance payment and the Postal Service’s loss
                                      of interest on advanced monies. Additionally, the
                                      contracting officer did not formally notify the contractor of
                                      conditional acceptance following FAT or timely modify the
                                      contract to reflect subsequent agreements to revised testing
                                      and acceptance procedures. Finally, the COR did not
                                      review and maintain receiving reports or other supporting
                                      documentation for nine of 39 contractor invoices14 before
                                      certifying them for payment.

 Advance Payment to                   At the time the Postal Service awarded the APPS
 the Contractor                       production and deployment contract, it also awarded a
                                      second contract to the same contractor, resulting in an
                                      apparent unapproved $12 million advance payment.
                                      Specifically, on September 20, 2002, the Postal Service
                                      awarded a $308.8 million contract for the design,
                                      manufacture, test and acceptance, delivery, installation, and
                                      support of the production level APPS. On the same day,
                                      the Postal Service awarded a $12 million contract to the
                                      same contractor for APPS core recognition technology
                                      software, Version 1.0, and nonrecurring engineering. Three
                                      days later, the contractor delivered the software on a CD-
                                      ROM and the Postal Service paid the contractor $12 million
                                      on October 16, 2002. Supply Management personnel
                                      stated this alternative payment agreement was made to
                                      facilitate a reduction in the final contract price. This
                                      arrangement allowed the contractor to receive monies
                                      before delivering any supplies. Program management
                                      personnel stated they did not test or use the CD-ROM or
                                      know its whereabouts.

                                      The Postal Service’s Purchasing Manual, Issue 2,
                                      paragraph 1.6.7, Advance Payments and Progress
                                      Payments, states the Postal Service usually pays for
                                      supplies and services after delivery or performance.

14
     The nine invoices totaled approximately $59.7 million, while the 39 invoices totaled approximately $228 million.


                                                            10
Automated Package Processing System                                                            DA-AR-07-001
 Status and Administration


                                 Management Instruction FM-610-96-1, Advance Payments,
                                 dated March 20, 1996, required the Vice Presidents,
                                 Purchasing and Materials, and Controller, Finance, to
                                 approve advance payments of more than $50,000 and the
                                 supplier to pay interest on the daily balance of unliquidated
                                 advance payments.15

                                 The contractor’s initial proposal price of approximately $357
                                 million was audited and found to be reasonable. Per the
                                 negotiation memorandum, the Postal Service agreed to the
                                 additional $12 million contract to encourage the contractor
                                 to lower its overall APPS proposal price from $336.8 million
                                 to $320.8 million during final negotiations. This approach to
                                 contract negotiation and financing is most analogous to an
                                 advance payment. However, the contracting officer did not
                                 request the Vice President, Controller, Finance, to approve
                                 advance monies, as required by Postal Service policy.
                                 Additionally, the contractor was not required to pay interest
                                 on the daily balance of the unliquidated advance payment.

                                 By advancing the contractor $12 million and not fulfilling all
                                 the control requirements for an advance payment, the
                                 Postal Service accepted additional financial risks and
                                 incurred approximately $2 million in lost interest on
                                 advanced monies. This represents non-monetary benefits
                                 of $12 million for assets at risk and monetary benefits of
                                 approximately $2 million of unrecoverable questioned costs.
                                 These amounts will be reported as such in our Semiannual
                                 Report to Congress. (See Appendix A.)




15
   Management Instruction FM-610-96-1, Advance Payments, dated March 20, 1996, was superseded after the date
of the contract award by Management Instruction FM-610-2003-1, Advance Payments, dated November 28, 2003.
The requirement to obtain approval remains the same; however, the threshold was raised to $1 million.


                                                     11
Automated Package Processing System                                                                     DA-AR-07-001
 Status and Administration




 Recommendation                       We recommend the Vice President, Supply Management, in
                                      coordination with the Vice President, Engineering:

                                      4. Ensure management obtains appropriate approvals prior
                                         to contract execution when negotiations result in
                                         alternative payment agreements or advance payments
                                         and require contractors to pay interest, as appropriate.

 Management’s                         Management agreed with the recommendation and stated
 Comments                             they communicated it to applicable personnel. However,
                                      management disagreed with our categorization of the
                                      $12 million payment as an advance payment, stating the
                                      separate contract was part of the overall negotiations and in
                                      the Postal Service’s best interest.

 Evaluation of                        While management’s comments are responsive to the
 Management’s                         recommendation, they are not responsive to the issues
 Comments                             raised in the finding. We agree the separate contract was
                                      part of the negotiations and resulted in an overall reduced
                                      price. However, we believe the Postal Service’s agreement
                                      is most analogous to an advance payment since the
                                      arrangement allowed the contractor to receive monies
                                      before delivering any supplies. Specifically, program
                                      management stated they did not test or use the Version 1.0
                                      CD-ROM or know its whereabouts. Consequently, we
                                      continue to believe our recommendation and claimed
                                      benefits are appropriate. However, we do not plan to
                                      pursue this recommendation through the formal audit
                                      resolution process.

 Documenting                          The contracting officer did not formally notify the contractor
 Decisions and                        of conditional acceptance following FAT or timely modify the
 Agreements                           $308.8 million APPS production contract to reflect
                                      subsequent agreements to revised testing and acceptance
                                      procedures. Correspondence in the contract file showed
                                      the Postal Service communicated conditional acceptance;16
                                      however, the contracting officer could not show the
                                      communication included the contracting officer’s signature.
                                      Additionally, the Postal Service used modified test and
                                      acceptance procedures (FLAT) at four sites to determine
                                      whether retrofit improvements enabled conditionally

16
     The Postal Service transmitted a copy of the conditional acceptance letter via email on May 21, 2004.


                                                            12
Automated Package Processing System                                                                   DA-AR-07-001
 Status and Administration


                                   accepted APPS machines to achieve system performance
                                   requirements.

                                   The contractor participated in the modified test procedures;
                                   however, those procedures were not incorporated into the
                                   contract. The Purchasing Manual, paragraph 1.4.2.a,
                                   makes contracting officers responsible for ensuring the
                                   performance of all actions necessary for efficient and
                                   effective purchasing, ensuring compliance with the terms of
                                   contracts, and protecting the interests of the Postal Service
                                   in all contractual relationships.

                                   Supply Management personnel stated the absence of the
                                   contracting officer’s signature on the conditional acceptance
                                   letter was an oversight. They also said FLAT procedures
                                   were not new contractual obligations, but were designed to
                                   facilitate retesting of conditionally accepted APPS
                                   machines. Therefore, contracting personnel believed they
                                   did not need to incorporate FLAT retest procedures,
                                   implemented in August 2005, into the contract. However, in
                                   July 2006, the Postal Service modified the contract to
                                   document FLAT and post-FLAT results and incorporate
                                   revised testing and acceptance procedures for conditionally
                                   accepted APPS machines.17

                                   Documenting the contracting officer’s signature on the
                                   conditional acceptance letter and timely incorporating
                                   revised testing and acceptance procedures into the contract
                                   reduce the Postal Service’s risk of contractor claims for
                                   costs associated with revised testing procedures.

 Recommendations                   We recommend the Vice President, Supply Management:

                                   5. Direct the contracting officer to document the contract
                                      file to explain how conditional acceptance was
                                      communicated to the contractor.

                                   6. Direct the contracting officer to timely modify the
                                      Automated Package Processing System contract to
                                      incorporate any future revisions to testing and
                                      acceptance procedures.



17
  Modification 18 was signed and effective on July 21, 2006. Among other things, it included a post-FLAT retrofit
plan.


                                                         13
Automated Package Processing System                                                                   DA-AR-07-001
 Status and Administration




 Management’s                      Management agreed with the recommendations and stated
 Comments                          they added supporting documentation to the contract file to
                                   explain how the contracting officer communicated
                                   conditional acceptance to the contractor and will incorporate
                                   future testing and acceptance revisions into the contract
                                   timely.

 Evaluation of                     Management’s comments are responsive to the
 Management’s                      recommendations and actions taken should correct the
 Comments                          findings identified in the report.

 Controls Over                     The COR received 39 contractor invoices,18 but did not
 Automated Package                 review and maintain supporting documentation for progress
 Processing System                 payments or receiving reports for nine19 of them before
 Contract Payments                 certifying them for payment. Specifically, the COR did not
                                   review and maintain supporting documents to validate the
                                   contractor incurred the claimed costs for six of 26 progress
                                   payment invoices.20 Additionally, the COR did not review
                                   and maintain associated receiving documents to verify
                                   delivery and Postal Service acceptance for three of 13
                                   invoices21 submitted for supplies and services.

                                   The COR designation letter, dated December 20, 2002,
                                   requires the COR, upon receipt, to verify invoices and
                                   promptly certify them for payment.

                                   The COR stated that when verifying invoices, she did not
                                   always review and maintain supporting documentation for
                                   progress payments and did not review and maintain
                                   receiving reports due to an oversight.

                                   Reviewing and maintaining supporting documentation for
                                   invoices helps the Postal Service ensure that contractors
                                   actually incurred the costs they claim for progress payments
                                   and provided supplies and services prior to payment. As
                                   part of the audit, we validated that progress payments did
                                   not exceed the contractor’s eligible costs and that the Postal
                                   Service received supplies and services paid for under the

18
   The 39 invoices totaled approximately $228 million.
19
   The nine invoices totaled approximately $59.7 million.
20
   The 26 total progress payment invoices totaled approximately $209 million, while the six questioned progress
payment invoices totaled approximately $58.8 million.
21
   The 13 total acceptance invoices totaled approximately $19 million, while the three questioned acceptance invoices
totaled approximately $924,000.


                                                         14
Automated Package Processing System                                            DA-AR-07-001
 Status and Administration


                             invoices.

 Recommendation              We recommend the Vice President, Supply Management,
                             direct the contracting officer to instruct the contracting
                             officer’s representative to:

                             7. Review and maintain copies of invoice supporting
                                documentation as evidence that contractors actually
                                incurred costs they claimed for progress payments and
                                provided supplies and services before management
                                certifies invoices for payment.

 Management’s                Management agreed with the recommendation and stated
 Comments                    they communicated the recommendation to applicable
                             personnel.

 Evaluation of               Management’s comments are responsive to the
 Management’s                recommendation and actions taken should correct the
 Comments                    finding identified in the report.




                                             15
    Automated Package Processing System                                                                DA-AR-07-001
     Status and Administration


              APPENDIX A. ASSETS AT RISK AND UNRECOVERABLE
                            QUESTIONED COSTS

    Non-Monetary Benefits

    1. By advancing the contractor $12 million on October 16, 2002, without proper
       approvals, the Postal Service accepted additional financial risks.

    Total Assets at Risk = $12,000,000

    Monetary Benefits

    2. To calculate the estimated cost of the $12 million advance payment to the contractor
       on October 16, 2002, repayment of the $12 million principal amount is modeled to
       have occurred in the same proportions and timing as actual invoices paid relative to
       the total $308.8 million APPS contract between July 23, 2004, and March 23, 2006.
       For any period, the cost is the principal balance multiplied by the fraction of the
       Postal Service’s published cost of borrowing annual rate that corresponds with the
       number of days in the period. For example, for 100 days and a 5 percent annual
       rate, cost = principal x ((1.05^(100/365)) - 1). The Postal Service’s published cost of
       borrowing annual rate was updated on November 4, 2005, from 5 percent to
       5.25 percent. Therefore, the principal amount between the September 21, 2005,
       invoice and the December 15, 2005, invoice was subject to 44 days at 5 percent and
       41 days at 5.25 percent.
                                                                                                  Cost at
                                                             Portion of               Cost at      5.25
                                              Fraction of   $12 million              5 Percent    Percent
Payment     Invoice Paid    Cumulative       $308,800,000    Advance          # of    Annual      Annual
  Date        Amount        Payments             Paid       Outstanding       Days     Rate        Rate     Total Cost
10/16/02                                                     $12,000,000      646    $1,082,279              $1,082,279
7/23/04    $1,200,000.00     $1,200,000.00     0.00388601        11,953,368    31       49,635                   49,635
8/23/04      9,903,028.36    11,103,028.36   0.035955403         11,568,535    32       49,590                   49,590
9/24/04    11,796,339.00     22,899,367.36   0.074155982         11,110,128   188      282,738                  282,738
3/31/05      1,603,236.00    24,502,603.36   0.079347809         11,047,826    91      135,208                  135,208
6/30/05    29,005,071.00     53,507,674.36   0.173276148          9,920,686    60       79,887                   79,887
8/29/05       586,551.00     54,094,225.36      0.1751756         9,897,893    21       27,823                   27,823
9/19/05      2,458,530.00    56,552,755.36   0.183137161          9,802,354    2         2,621                    2,621
9/21/05    33,947,917.00     90,500,672.36   0.293072126          8,483,134    85       50,041    $48,899        98,940
12/15/05   15,855,780.00    106,356,452.36   0.344418563          7,866,977    69                  76,466        76,466
2/22/06    27,685,405.00    134,041,857.36   0.434073372          6,791,120    29                  27,665        27,665
3/23/06    35,180,706.00    169,222,563.36   0.548000529          5,423,994
                                                                                                                         22
                                                                                                            $1,912,852




    22
      As of March 23, 2006, an estimated $5,423,994 of the original $12,000,000 advance payment remained
    outstanding.



                                                            16
Automated Package Processing System                                           DA-AR-07-001
 Status and Administration


3. For the future period from the last invoice date (March 23, 2006) to the planned final
   delivery date (September 15, 2006), in the absence of specific information, a
   conservative assumption was that the remaining estimated principal balance of
   $5,423,994 should be retired proportionally each day — $30,818 per day for
   175 days and $30,844 on the 176th and final day. Cost was calculated on the
   remaining principal balance each day. That computation resulted in an additional
   $67,298 in estimated interest costs. Therefore, total estimated cost is $1,912,852 +
   $67,298 = $1,980,150.

Total Unrecoverable Questioned Costs = $1,980,150

NOTES

ASSETS AT RISK – Dollar value of assets deemed to be at risk of loss due to
inadequate internal controls.

QUESTIONED COSTS – A cost that is unnecessary, unreasonable, unsupported, or an
alleged violation of law, regulation, or contract.

UNRECOVERABLE COSTS – A cost that should not have been incurred and is not
recoverable.




                                            17
Automated Package Processing System                  DA-AR-07-001
 Status and Administration


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                      18
Automated Package Processing System        DA-AR-07-001
 Status and Administration




                                      19
Automated Package Processing System        DA-AR-07-001
 Status and Administration




                                      20
Automated Package Processing System        DA-AR-07-001
 Status and Administration




                                      21
